<html>
<title> - ANTAGONIZING THE NEIGHBORHOOD: PUTIN'S FROZEN CONFLICTS AND THE CONFLICT IN UKRAINE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


    ANTAGONIZING THE NEIGHBORHOOD: PUTIN'S FROZEN CONFLICTS AND THE 
                          CONFLICT IN UKRAINE

=======================================================================

                                HEARING

                               BEFORE THE

      SUBCOMMITTEE ON EUROPE, EURASIA, ENERGY, AND THE ENVIRONMENT

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             March 11, 2020

                               __________

                           Serial No. 116-103

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


       Available:  http://www.foreignaffairs.house.gov/, http://
                            docs.house.gov, 
                       or http://www.govinfo.gov                     
                                              
                       
                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman

BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey		     CHRISTOPHER H. SMITH, New Jersey     
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida	     JOE WILSON, South Carolina
KAREN BASS, California		     SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts	     TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island	     ADAM KINZINGER, Illinois
AMI BERA, California		     LEE ZELDIN, New York
JOAQUIN CASTRO, Texas		     JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada		     ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California		     FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania	     BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLPS, Minnesota	             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota		     KEN BUCK, Colorado
COLIN ALLRED, Texas		     RON WRIGHT, Texas
ANDY LEVIN, Michigan		     GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia	     TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey	     STEVE WATKINS, Kansas
DAVID TRONE, Maryland		     MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas                              
                             
                                     
                Jason Steinbaum, Democrat Staff Director
               Brendan Shields, Republican Staff Director
               
                                 ------ 

Subcommittee on Europe, Eurasia, Energy, and The Environment

                WILLIAM KEATING, Massachusetts, Chairman

ABIGAIL SPANBERGER, Virginia         ADAM KINZINGER, Illinois, Ranking 
GREGORY MEEKS, New York                  Member
ALBIO SIRES, New Jersey		     JOE WILSON, South Carolina
THEODORE DEUTCH, Florida	     ANN WAGNER, Missouri
DAVID CICILLINE, Rhode Island	     JIM SENSENBRENNER, Wisconsin
JOAQUIN CASTRO, Texas		     FRANCIS ROONEY, Florida
DINA TITUS, Nevada		     BRIAN FITZPATRICK, Pennsylvania
SUSAN WILD, Pennsylvania	     GREG PENCE, Indiana
DAVID TRONE, Maryland		     RON WRIGHT, Texas
JIM COSTA, California		     MIKE GUEST, Mississippi
VICENTE GONZALEZ, Texas		     TIM BURCHETT, Tennessee
                                  

                    Gabrielle Gould, Staff Director                     
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Baer, Honorable Dan, Senior Fellow, Europe Program, Carnegie 
  Endowment for International Peace, Former United States 
  Ambassador to the Organization for Security and Cooperation in 
  Europe.........................................................    12
Ostrovsky, Mr. Simon, Special Correspondent, PBS Newshour........    22
Vartanyan, Ms. Olesya Analyst, Eastern Neighborhood, 
  International Crisis Group.....................................    26
Nix, Mr. Stephen B., Regional Program Director, Eurasia, 
  International Republican Institute.............................    33

                                APPENDIX

Hearing Notice...................................................    61
Hearing Minutes..................................................    62
Hearing Attendance...............................................    63

 
    ANTAGONIZING THE NEIGHBORHOOD: PUTIN'S FROZEN CONFLICTS AND THE 
                          CONFLICT IN UKRAINE

                       Wednesday, March 11, 2020

                           House of Representatives
          Subcommittee on Europe, Eurasia, and the 
                                        Environment
                       Committee on Foreign Affairs
                                                    Washington, DC,

    The subcommittee met, pursuant to notice, at 2 p.m., in 
room 2172 Rayburn House Office Building, Hon. William Keating 
(chairman of the subcommittee) presiding.
    Mr. Keating. Last month marked 6 years since Russia invaded 
Ukraine, 6 years of conflict in Ukraine, and it is not cold by 
any means, with cease-fires that failed to hold to this day.
    I would like to start the hearing with a brief clip, if we 
could, from less than a year ago, because I think it is 
important to remember how devastating this conflict has been 
and how, importantly, it continues today.
    [Video shown.]
    Mr. Keating. I also would like to recognize Ambassador 
Yelchenko of Ukraine and a delegation of Ukranian veterans. And 
thank you for joining us; if you could please stand and be 
recognized.
    [Applause.]
    Mr. Keating. The subcommittee's meeting today, as I 
mentioned, is to hear testimony on Putin's frozen conflicts and 
conflict in Ukraine. Without objection, all members may have 5 
days to submit statements, questions, extraneous material for 
the record, subject to the length and limitation in the rules.
    I will now make an opening statement. As we have seen from 
the films that we have just witnessed, the conflict in Ukraine 
continues. This is Ukraine. However, when we look around the 
region, Ukraine simply is the most recent incidents where 
Russia has exploited divisions and deployed resources to 
destabilize the borders of its post-Soviet neighbors.
    Today we are looking at the conflicts in Ukraine, Georgia, 
and Moldova. Each took a place in different decades, and 
Russia's intervention in each was very different as well. 
However, to this day, none of these countries maintains full 
control over its borders, and it is instead trapped in the 
incredibly precarious situation of striving to make critical 
reforms to strengthen democratic governance and develop closer 
ties to the West, all while being unable to fully govern and 
serve all of its citizens.
    In Moldova fighting ceased in the 1990's when the conflict 
displaced some 130,000 people in the multiethnic region of 
Transnistria. However, despite decades now of dedicated 
diplomatic efforts, Russian troops remain in the region, and as 
recently as 2018 were reported to be carrying out military 
exercises there.
    In Georgia, more than 800 military personnel and civilians 
died in the conflict, and 20,000 Georgia residents were forced 
to leave their homes in now-occupied regions of South Ossetia 
and Abkhazia. Ethnic Georgians who remained faced harassment 
and discrimination and lack access to many basic services and 
economic opportunities.
    In Ukraine, the war still continues in the east. Nearly one 
and a half million Ukrainians have been displaced, and over 
13,000 lives have been lost, including over 3,000 civilians. In 
Crimea, which was once an economic hub of tourism for Ukraine, 
people there essentially live in a police State.
    It is important that we take the time to assess these 
conflicts for a few reasons. First and foremost, because of the 
incredible human toll they have taken on local communities. 
Innocent civilians have lived through these wars, this 
destruction, because of Russia's arrogance and aggression. We 
must not lose sight of how these conflicts have directly harmed 
generations of Moldovans, Georgians, and Ukrainians.
    Further, it is important that we remember that these 
countries are pro-Western. They are working to strengthen their 
democracies and ties with Europe and the United States, both 
economically and in terms of our security partnerships. These 
are our friends and partners.
    If we are to succeed and overcome in the global crisis and 
challenges we face in climate change, terrorism, and threats 
from Russia and China, our best path forward is to work 
together in a broad coalition of partners who share our 
democratic values. And these countries will be strong partners, 
once they have achieved sovereignty over their own borders.
    Russia clearly knows that, too, and that is the reason why 
this is not a time for us to let our support wane from these 
countries, or let politics get in the way of our clear security 
interest in this region, because finally we cannot be naive and 
act as if Russian aggression is over. The Kremlin continues to 
identify fissures in the West and deploy minimal resources to 
tear wide open and allow them to stay frozen and festering.
    We need an informed, realistic response to Russia's 
tactics. So far, we have failed to reach resolutions to any of 
these conflicts. Instead, have allowed them to remain 
distractions that pull resources away from the critical work we 
must be doing to grow and strengthen our coalition of allies to 
address the shared challenges and threats ahead.
    We did not plan for the conflict in Moldova, nor after that 
the conflict in Georgia, nor after that the conflict in 
Ukraine. And, still, none of these conflicts are resolved. It 
is past time we identify why our efforts so far have not been 
successful, change course to not repeat the same mistakes, and 
learn from these conflicts, so that we are prepared to address 
what we should assume will be inevitable future Russian 
aggression in the region.
    That is why I am pleased we are joined by a distinguished 
panel of witnesses who can speak to these realities and the 
realities on the ground, and our efforts to date in resolving 
them. Thank you all for being here, traveling great distances 
to join us, and I turn now to the ranking member, 
Representative Kinzinger, for his opening statement.
    Mr. Kinzinger. Thank you, Mr. Chairman. To our guests 
testifying, thank you for being here. To our guests here, thank 
you for being here as well.
    One thing that we need to remember is Russia is kind of a 
paper tiger. So, militarily, whenever the United States pushes 
back on Russia, they are quiet. Whenever Turkey pushes back, 
frankly, on Russia, they grow quiet. They are good at going up 
to a brick wall, but obviously stopping when they hit that 
because they have no ability to make it through.
    I remember during the initial Crimea situation I was 
downstairs on the treadmill watching the news, and I remember 
seeing I think it was a Ukrainian naval commander that stood 
and faced down Russian forces. And he said, ``The United States 
is with us.'' And I remember watching that on the treadmill and 
getting pretty choked up because I knew what it meant to be 
America and to be an American, and I was very proud.
    When we look at the conflicts right now in Ukraine, 
Georgia, and Moldova, it is important to note that five 
conflicts exist inside these countries, all carrying their own 
unique problems. They have one distinct common denominator, 
however, and that is Russia. These conflicts have shown 
Russia's willingness to use an advanced set of tools to prevent 
nations that used to be within the Soviet sphere of influence 
from moving closer to Western institutions.
    One of the five tools developed and deployed by the Kremlin 
was to hide behind the guise of protecting ethnic Russians 
across the region. While open hostilities between Russia and 
Georgia have been going on since the fall of the USSR, it was 
Putin's distribution of passports to Georgian citizens in 2002 
that laid the groundwork for Russian intervention in 1908.
    We now see the Russian-occupied territories of South 
Ossetia and Abkhazia slowly moving their borders to occupy more 
Georgia territory. Many ethnic Georgians in these regions have 
fled for fear of persecution, and some have died given the lack 
of medical care provided inside these areas. In Ukraine, Russia 
used, quote, ``little green men'' in Crimea and the Donetsk 
regions. This tactic has allowed the Kremlin to deny any 
involvement in the invasion and occupation of these 
territories, even though we know quite better.
    As a result, nearly 6 million Ukrainians are now living 
under the control of Russia and their proxies. This may be one 
of the most pressing foreign policy issues that this 
subcommittee faces. What happens there is important to the 
Transatlantic relationship and to our national security.
    Both Ukraine and Georgia have been stalwart allies of the 
United States since gaining their independence. The continuous 
provocations by the Russian Federation must be dealt with. 
While these cases outline the fragile situation Ukraine and 
Georgia find themselves in, I believe there is a silver lining.
    Russia intervened in both countries out of fear that 
freedom and democracy were approaching their doorstep. Both 
Ukraine and Georgia had expressed interest in increasing their 
cooperation with the West, especially with NATO. Putin 
intervened to prevent democratic values from taking hold in the 
region. However, this tactic drastically failed.
    Last year, the Ukrainians elected a political outsider who 
ran on an anti-corruption platform and pledged to push back on 
Russia's malign influence as president. Mr. Zelensky has got a 
difficult road ahead of him, and the United States and our 
European partners must be willing to assist Ukraine in 
countering the Kremlin.
    Since Georgia independence in 1991, we have witnessed the 
Georgia people march toward democracy and a deeper partnership 
with the West. Just this weekend, our allies in Georgia proved 
that while Russia occupies their territory, it would not halt 
them from their goals of EU and NATO accession. Democracy is 
not easy. It needs to be cared for, and it needs to be fought 
for. That is what occurred in Georgia.
    Following months of negotiations, protests, and violence in 
the streets, we saw a political compromise rarely seen in 
established democracies like the United States, let alone a 
young democracy like Georgia. With the help of the American 
Embassy in Tbilisi, and our new Ambassador, Kelly Degnan, we 
witnessed the ruling Georgian Dream Party agree to transition 
toward a proportional electoral system.
    The ruling party willingly gave up some of their power to 
strengthen and protect their nation's democracy. If this does 
not demonstrate the Kremlin's failed strategy, I do not know 
what does. There is still work to be done in Georgia, like 
ensuring the 2020 parliamentary elections are free from 
interference and strengthening the business environment to 
allow Americans and European investment, but our Georgian 
allies must be commended for their work to defend their 
democracy.
    Again, I want to thank the panel for joining us today, and 
I want to thank the chairman for calling this. We will have 
plenty to talk about, and I yield back to the chairman.
    Mr. Keating. Thank you. Now, for a 1-minute opening, Mr. 
Cicilline.
    Mr. Cicilline. Thank you, Chairman Keating and Ranking 
Member Kinzinger, for holding this important hearing on Russian 
aggression in Eastern Europe. And thank you to our witnesses 
for being here today.
    The fall of the Soviet Union in the early 1990's marked a 
critical turning point for freedom and democracy in Europe. For 
the first time in more than a century, countries in Eastern 
Europe would have the opportunity to choose the path of 
democracy and self-government over the tyranny of Communism and 
totalitarian rule.
    For many nations, however, these ambitions were often 
undermined by Russian desires to prevent these nations from 
moving closer to the West and away from their influence.
    The first decades of the 21st century have seen Russia seek 
to undermine and outright halt democratic ambitions and sew 
discord and conflict in former Soviet countries, thus 
escalating tensions with the West and reviving long-held fears 
of an aggressively expansionistic Russia determined to maintain 
the stronghold on its former satellites.
    I look forward to today's hearings with today's witnesses 
and to a really informative discussion on this very important 
issue.
    And with that, Mr. Chairman, I yield back.
    Mr. Keating. I will now introduce our panel of witnesses. 
Ambassador Daniel Baer is an American politician and former 
diplomat currently working as a senior fellow in the Europe 
Program at the Carnegie Endowment for International Peace. He 
served in the Obama Administration's State Department, first as 
Deputy Assistant Secretary of State for the Bureau of 
Democracy, Human Rights, and Labor, and then as United States 
Ambassador to the Organization for Security and Cooperation in 
Europe from 2013 to 2017, directly engaging with Russian 
diplomatic representatives over the conflicts in Ukraine, 
Georgia, and Moldova.
    Mr. Simon Ostrovsky is an award-winning documentary film 
maker, an investigative journalist, best known for his coverage 
of the 2014 Crimea crisis and the war in Eastern Ukraine for 
Vice News Service where he investigated and made clear that 
Russia used unmarked soldiers to annex Crimea and highlighted 
the real and devastating effects on the civilian populations in 
Eastern Ukraine and Crimea.
    For his coverage of the war, he was awarded the prestigious 
DuPont Award from Columbia University and was nominated for two 
Emmys.
    Ms. Olesya Vartanyan--is that correct?--is an International 
Crisis Group analyst for the Eastern Neighborhood. Based in the 
Tbilisi, she researches and produces reports on regional 
security issues in Armenia, Georgia, and Azerbaijan.
    Ms. Vartanyan travels frequently to South Ossetia and 
Abkhazia, providing updates on the increasing deteriorating 
living conditions of those who remain these occupied 
territories. She has worked for several other news outlets in 
the past and won the first EU Monitoring Mission's Special 
Prize in Peace Journalism in 2013.
    Mr. Stephen Nix is Regional Program Director for Eurasia in 
the International Republican Institute. He previously worked at 
the U.S. Agency for International Development and spent time 
living in Ukraine. There he served as an outside legal counsel 
for the Committee on Legal Reform in the Ukranian parliament.
    Mr. Nix's polling work at IRI has provided policymakers 
with a window into the attitudes of Ukrainians and ethnic 
Russians living throughout the territories of Ukraine, as well 
as Georgia and Moldova.
    We appreciate all of you being here today, look forward to 
your testimony. Please limit your testimony to 5 minutes. And 
without objection, your prepared written statements will be 
made part of the permanent record.
    I will now go to Ambassador Baer.

  STATEMENT OF THE HONORABLE DAN BAER, SENIOR FELLOW, EUROPE 
  PROGRAM, CARNEGIE ENDOWMENT FOR INTERNATIONAL PEACE, FORMER 
 UNITED STATES AMBASSADOR TO THE ORGANIZATION FOR SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Baer. Thank you, Mr. Chairman, Mr. Ranking Member, and 
members of the committee. Thank you for holding this hearing 
and for inviting me to testify alongside such distinguished 
fellow panelists.
    When I was serving overseas, Simon's reporting was a 
crucial source of information about what was happening on the 
front lines. I remember when he was captured by militants, 
beaten, and held in a cellar for several days--a reminder of 
the risks that journalists like Simon take so that the rest of 
us can know what is happening.
    I am grateful to be here with Ms. Vartanyan and Mr. Nix, 
too. Crisis Group and IRI do great work around the world, and 
they attract great people.
    In recent years, we have devoted more attention to 
understanding how the U.S. should manage and respond to China's 
increasing influence and assertiveness. This is prudent. 
However, our focus on China should not be a get out of jail 
free card for Vladimir Putin, nor can we afford to allow our 
own domestic political convulsions to pervert U.S. foreign 
policy.
    Members of this committee took different votes on 
impeachment. They should not take different positions on 
national security threats going forward.
    The United States has an enduring interest in a Europe that 
is, in President George H.W. Bush's words, ``whole, free, and 
at peace.'' Putin's efforts to undermine democratic progress in 
Europe and to coerce European countries, particularly those 
that are former Soviet republics, is inimical to this strategic 
interest. We stand to benefit from the prevalence of rule of 
law, peace, and prosperity in Ukraine, Georgia, and Moldova, 
and of course their citizens do, too.
    Putin uses his backyard as a testing ground for tactics 
that he can deploy elsewhere, including against the United 
States and our allies. We saw the invasion of Crimea by little 
green men, Russian forces that, contrary to the laws of war, 
did not wear identifying insignia. In Donetsk and Luhansk, the 
Russian military experimented with techniques that are more 
often associated with non-State actors in order to carry out 
their military objectives.
    Putin has weaponized energy security, coercing governments 
by turning off or threatening to turn off natural gas. Cyber 
attacks are another weapon in Putin's arsenal of aggression. 
Many Americans were aghast that Russia intervened so 
dramatically in our 2016 election. None of our friends in 
Georgia, Ukraine, or Moldova were surprised. They have been 
dealing with Russian active measures and opportunistic 
politicians who take advantage of them for years.
    Under Putin, Clausewitz's famous aphorism that ``War is the 
continuation of politics by other means'' has been inverted. 
For Putin, intervention in politics is the continuation of war 
by other means.
    My fellow panelists will speak to the humanitarian cost of 
the conflicts, and these costs should not be seen as distinct 
from strategic ones. Humanitarian disasters have a 
destabilizing effect and represent lost economic opportunity in 
addition to their human costs.
    Looking forward, the U.S. should continue to support the 
sovereignty and integrity of Ukraine, Georgia, and Moldova, 
within their internationally recognized borders. In the case of 
Ukraine and Georgia, this includes continued security 
assistance and cooperation, which should be coupled with 
political support and public backing.
    In addition, we should continue to invest in European 
security more broadly, including the European Deterrence 
Initiative. Furthermore, we should work with NATO and our 
partners in the region, including Ukraine and Georgia, to 
coordinate strategy in the Black Sea, which Putin uses as a 
launch pad to wreak havoc in the Middle East.
    The U.S. should remain a resolute partner to Ukraine in its 
quest to build a more robust system of rule of law and to 
pursue the reforms that the Ukranian people recognize as 
imperative to deliver a better future for their children. 
Ukraine civil society and independent journalists hold the 
government to account, and we should take heed of their 
warnings when things are off track.
    In Georgia, just last weekend, the major parties agreed on 
a framework that, if implemented, lays the groundwork for 
constructive democratic parliamentary elections later this 
year. We must support it.
    And, Mr. Kinzinger, I saw your statement of support, in 
addition to Ambassador Degnan's, this week.
    The Trump Administration rightfully sanctioned the corrupt 
former chair of the Democratic Party in Moldova, Vlad 
Plahotniuc. There have been recent reports, however, that 
despite travel sanctions, Plahotniuc has been in the United 
States. This makes our commitment to enforcing consequences for 
corrupt actors look flimsy and raises questions about why he is 
being allowed to flout our sanctions. He and any family members 
that are under sanctions should be removed immediately.
    Reportedly, the Trump Administration is planning to make a 
decision this week about the future of U.S. participation in 
the Open Skies Treaty. Open Skies has been a tool for showing 
support for Ukraine in the face of Russian aggression. It is 
true, the Russians have been uncooperative in their 
participation in Open Skies and have often acted in bad faith, 
but we should hold them accountable. Pulling out of the OST 
would hand Putin a victory.
    In closing, I want to again thank Mr. Keating, Mr. 
Kinzinger, and members of the committee. I hope the committee 
will continue to engage on this topic and others and will call 
government witnesses to explain and defend the Administration's 
approach to these difficult issues.
    I am happy to endeavor to answer any questions, and I 
appreciate your submitting my longer statement for the record.
    [The prepared statement of Mr. Baer follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Keating. Thank you.
    Mr. Ostrovsky.

   STATEMENT OF SIMON OSTROVSKY, SPECIAL CORRESPONDENT, PBS 
                            NEWSHOUR

    Mr. Ostrovsky. Thank you, Mr. Chairman, Ranking Member, 
members of the committee, and, Ambassador, thank you for your 
kind words. I was not expecting that.
    Six years ago today, when I was a reporter for Vice News, I 
was running around the streets of Simferopol in Ukraine's 
Crimea region filming a pro-Ukraine protest, which was one of 
the last public displays in support of Ukrainian Statehood that 
would be permitted in Crimea before Moscow took total control 
of the region and formally annexed it just a few days later.
    Today, in accordance with the Russian constitution, public 
manifestations and protests are permitted, but what happens in 
practice and what is on paper are two very different things. 
And I know this because I have covered Russia and the former 
Soviet Union for the better part of the last two decades.
    I actually started my reporting career covering the Second 
Chechen War, which ended that Russian region's aspirations for 
independence. The Chechen independence movement is considered 
illegitimate in Russia, but I found Moscow's attitude toward 
ethnic Russians living under Ukrainian rule to be very 
different.
    Independence-minded Chechens are illegal separatists. 
Independence-minded ethnic Russians have historic rights to 
self-determination.
    Since Russia took effective control of Crimea, those who 
disagree with what has happened have had to flee or have been 
jailed. The few that dare occasionally to protest openly are 
quickly bundled away in police vans and handed severe 
sentences. In some cases, they have disappeared entirely.
    So how did it come to this? Well, the day after Crimea held 
its unrecognized referendum on independence, which was made 
possible by Russian troops who had taken control of the region, 
I was traveling around the peninsula asking everybody I met 
what country they thought we were in. It was a confusing time, 
so answers varied.
    At one point I actually shouted, ``What is this country 
called?'' to a group of teenagers who were drinking. And they 
replied in unison ``Russia.'' Others told me it was still 
Ukraine. In one case, a guy told me we were back in the Soviet 
Union.
    One woman I filmed at a rally responded by saying something 
along the lines of ``The West has not tasted the Russian 
jackboot in a while, and it is about time they woke up and 
smelled the coffee.'' And I thought it was a pretty colorful 
way for someone to express themselves, but after my story 
broadcast, I started getting strange messages from viewers. 
They had seen the very same woman appear under different names 
at different anti-Ukraine protests, in different locations 
around the country. They even sent screenshots from other TV 
reports she had already been featured in. Same woman, different 
names.
    I started to realize that the grass-roots support for 
splitting from Ukraine might not be so grass-roots after all. 
The protests that were gathering in front of administration 
buildings and Ukrainian military bases were actually part of a 
massive propaganda effort that would become the hallmark of 
Russia's campaign to destabilize and dismember its southern 
neighbor.
    I did not know at the time but we would see echoes of this 
strategy in the U.S. 2016 Presidential vote, where people 
ginned up by Russian puppet accounts on social media were told 
to come out into the streets and face each other in protests. 
The social media aspect of this strategy might be new, but the 
messages being put out are not. We saw the same thing happen 
during the Rwanda genocide. The Hutus used radio broadcasts to 
dehumanize Tutsis as cockroaches, resulting in a slaughter.
    And, in Bosnia, media aligned with Belgrade told Bosnian 
Serbs gangs of Muslims were on their way to rape and murder 
their wives and daughters. This one started a regional ethnic 
war and gave us the term ``ethnic cleansing.''
    When I was in Crimea, the story being pushed on Russian 
speakers was that a fascist junta had taken power in Kiev, and 
gangs of violent skinheads were on their way to ban the Russian 
language through force. Nothing could have been further from 
the truth. But Russian broadcasts that were blaring at full 
tilt out of every television in Russian-speaking homes of 
Ukraine sparked a war that has lasted 6 years and claimed close 
to 14,000 lives.
    The last time I was in Eastern Ukraine was in December 
filming a report for PBS NewsHour Weekend. After nearly 6 years 
of war, attitudes had really shifted. No longer did I hear from 
residents a full-throated defense of Russia's military presence 
in the region. And unlike Crimea, Russia-occupied Eastern 
Ukraine has never been formally annexed by Moscow. Its Russian-
speaking residents have been left in limbo, living under puppet 
regimes with no international status and no future.
    Many have realized that Moscow's real plan for them is not 
integration into Russia, but reintegration into Ukraine. Moscow 
is seeking a special status for the Donbass that would give it 
veto powers over decisions being made in the Ukrainian capital, 
like NATO membership or joining the European Union.
    Its residents are simply pawns in that plan and are 
beginning to think that maybe things were not so bad before the 
war started after all.
    Thank you.
    [The prepared statement of Mr. Ostrovsky follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Keating. Thank you.
    Ms. Vartanyan.

      STATEMENT OF MS. OLESYA VARTANYAN, ANALYST, EASTERN 
            NEIGHBORHOOD, INTERNATIONAL CRISIS GROUP

    Ms. Vartanyan. Good afternoon, Chairman Keating, Ranking 
Member Kinzinger, and distinguished members of the 
subcommittee. Today, at this important hearing, I will speak 
about the situation in Georgia.
    I have visited Georgia's two breakaway regions of Abkhazia 
and South Ossetia many times in recent years, and every time I 
go I see how life there is growing even more difficult and 
challenging.
    Weak local administrations are unable to provide basic 
services, and Russia has built up a new militarized divide, 
hampering movement to and from Georgian-controlled territory. 
Allowed to fester, local problems can only raise the risk of 
protracted instability and further violence with repercussions 
for the South Caucuses region and its people, as well as for 
already complicated U.S. relations with Russia.
    In my testimony, I will speak about three problem areas in 
particular--the internal situation in the breakaway regions and 
Russia's rule, ethnic Georgians living in Abkhazia and South 
Ossetia, and the situation at the line of separation.
    And I will begin with the internal situation, just some 
examples of what the life on the ground looks like for a local 
resident. Last year, an old mother of my good friend in 
Abkhazia had to struggle with broken ribs for weeks only 
because local doctors could not read the X-ray films. They did 
not make it on purpose. Most local doctors have not received 
professional trainings for the kids, and often lack the 
equipment necessary for even the most basic health checks.
    Every time there is a heavy rain in Abkhazia, its main 
town, Sukhumi, is flooded and travel boats often become the 
only means of transport because cars cannot get down the water-
logged streets. Local policemen pay out of pocket for uniforms 
and to fuel their cars, motivating them to seek bribes to cover 
those costs.
    Such problems dishearten local people. Nevertheless, the 
local elites remain broadly loyal to Russia, which is the only 
regional power that recognizes independence and supports the 
regions politically, financially, and militarily. Still, some 
representatives of the de facto leaderships--at least 
privately--express disappointment at Russia's reluctance to 
support the further development of the regions as viable 
States.
    Last week I was in Moscow to discuss situation in the 
Georgian breakaway regions, and similar to all of these years 
of the past decade since Russia recognized Georgia's regions, 
many in Moscow appeared reluctant to increase Russia's 
investment.
    The second issue I want to address is ethnic Georgians 
living in Abkhazia and South Ossetia. There are around 50,000 
of them, and they are 25 percent of population in Abkhazia and 
almost 10 percent of people living in South Ossetia.
    In addition to everyday hurdles, the local ethnic Georgians 
face discrimination from the local de facto authorities. 
Schools do not teach in their native Georgian language. They 
lack the right to run or vote in local elections, and they are 
kept out of many jobs.
    Few ethnic Georgians in these breakaways have local 
passports, and they are treated as foreigners. The lives of 
most of them are split between breakaway regions and Georgian-
controlled territory, as they must cross into Georgia proper to 
earn a living, have access to medical care, and receive 
pensions.
    Crossings has never been easy, but in the last couple of 
years it has become a bigger problem. And the de facto 
authorities close the crossings more often and for long periods 
of time with no warning and for reasons that often have nothing 
to do with security concerns.
    In fact, de facto authorities of South Ossetia have closed 
most crossing points since last September, and many ethnic 
Georgians living in the region were left with no income to buy 
food or firewood and went hungry and cold with winter. Some 
Georgians from these regions told me that if problems with 
crossings continue, they will eventually have to immigrate.
    Finally, a topic some members of this committee are well 
aware of, which is the process called borderization. For almost 
9 years, the de facto authorities and Russian border guards 
have dug trenches, erected fences, and installed video cameras, 
to define the line that separates Abkhazia and South Ossetia 
from Georgia-controlled territory.
    Some of these barbed wire fences run through the center of 
many Georgian villages, and I know that some of you saw this 
firsthand when visiting the region. That greatly affects the 
people in the area and provokes many new incidents that may 
have a potential to turn violent if they stay unaddressed.
    For all these years, the current Georgian government has 
responded with what it calls ``strategic patience.'' In light 
of its decision to normalize relations with Russia, Tbilisi 
made attempts to mitigate sources of friction that could 
undermine the normalization process. Consequently, the Georgian 
government has not attempted to stop a force at borderization. 
In fact, it has even disrupted people by its own--disrupted 
protests by its own citizens against Russia's actions.
    Nevertheless, there are signs that Georgia's strategic 
patience is wearing thin, and last August the Georgian 
government established a police outpost in an area where 
Russian and de facto South Ossetian authorities had planned to 
build new barbed wire fences, which led to a serious escalation 
in tensions between both sides, and since then massive talks 
helped to calm the situation.
    But if no steps are taken to resolve more fundamental 
grievances between the two sides, the parties could quickly 
find themselves again with a potential for violent clashes.
    My longer written statement offers some thoughts about how 
the United States can help to address each of these three areas 
and encourage greater stability in this troubled part of the 
world. And I will be happy to discuss these ideas in the Q&A 
session.
    Thank you.
    [The prepared statement of Ms. Vartanyan follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Keating. Thank you.
    Mr. Nix.

  STATEMENT OF MR. STEPHEN B. NIX, REGIONAL PROGRAM DIRECTOR, 
          EURASIA, INTERNATIONAL REPUBLICAN INSTITUTE

    Mr. Nix. Chairman Keating, Ranking Member Kinzinger, 
members of the subcommittee, thank you for the opportunity to 
appear before you today.
    The conflicts imposed by Vladimir Putin on Ukraine, 
Georgia, and Moldova have created military, political, and 
policy challenges in all three countries. In addition to 
providing factual analysis to you today, we hope to provide the 
subcommittee with recommendations and how the U.S. can engage 
in all three situations.
    Starting with Ukraine, President Zelensky has dramatically 
enhanced his government's efforts to resolve the crisis in the 
occupied territories of Donbass and Crimea. The Ukrainian 
government has increased its level of engagement with Ukrainian 
citizens still residing in these territories, improved the 
quality of critical public services to address needs created by 
the conflict, and the government has reinvigorated diplomatic 
efforts to increase international pressure on the Kremlin to 
allow for the reintegration of these territories.
    It is crucial that the United States does all it can to 
support the Zelensky government in achieving these aims. IRI 
polling is very clear in stating that 82 percent of Ukrainian 
citizens want the territories in Donbass to be reintegrated 
into Ukraine. So it is very clear how the Ukrainian people 
feel.
    In sum, Ukrainians remain resolute in their desire to 
restore their country's territorial integrity. Until the 
Kremlin removes its troops, seals the border with Russia, peace 
is impossible. While the conflict continues, the United States 
can take concrete steps to support the Ukrainian government's 
goal to reintegrate residents of the occupied territories into 
Ukrainian society.
    Our recommendations are as follows: first, we believe 
economic sanctions are having the desired effect. The United 
States should not only continue to impose strategic and 
targeted sanctions on the Russian Federation but should expand 
them until Ukraine's territorial integrity is restored. The 
U.S. should also encourage our European allies to continue and 
expand sanctions.
    Second, with a monthly average of approximately a million 
checkpoint crossings in the Donbass region alone, there is a 
high level of civilian crossings and traffic across the 
territories. Why is this important? Ukrainian citizens from 
Donbass and Crimea cross these checkpoints in order to collect 
their pensions, to obtain passports, and other important legal 
documents that retain a legal and social relationship with the 
Ukrainian government in Kyiv.
    Third, the United States should increase its efforts to 
support the Ukrainian government's goal of filling the 
information vacuum in Donbass and Crimea. Greater access to 
information about government-controlled Ukraine will allow 
residents in the occupied territories to feel more included in 
Ukrainian society in political processes.
    Now, quickly, to Georgia, in Abkhazia and Ossetia, the 
frozen conflicts continue to affect Georgian domestic politics 
in profound ways, particularly regarding security and economic 
policy. Most notably, the very existence of Russian-backed 
separatist authorities have been cited as the primary barrier 
to Georgian accession to NATO.
    Public opinion in Georgia is also very clear. Eighty-five 
percent of Georgian citizens would like to see their country 
have EU membership. Eighty percent seek NATO membership. Very, 
very clear that Georgian citizens want their country to be 
integrated into the West.
    In terms of recommendations, we suggest the following. 
Again, the U.S. should expand sanctions on the Russian 
Federation. The U.S. should further encourage and support 
Georgia in playing a larger role in NATO engagement and 
enlargement and provide it with a clear accession roadmap with 
defined benchmarks and targets.
    Finally, the U.S. should continue to support the Geneva 
International Discussions, which are really the only existing 
format for addressing security, human rights, and humanitarian 
challenges stemming from these unresolved conflicts.
    And then, finally, and very briefly, on Moldova, the 
Transnistria conflict differs from the other two in that the 
conflict is generally peaceful. There is frequent people-to-
people contact, and both territories have been steadily 
increasing their economic integration.
    Two quick recommendations on Moldova. The U.S. should 
support Moldova and Ukraine in their continued development of 
reform efforts, particularly regarding anti-corruption, and the 
U.S. should also leverage its participation in the five plus 
two negotiations to build on the successes of the confidence-
building measures that have been taking place to date.
    And I will close, if I could, with a quote from our late, 
great Chairman, Senator John McCain, who spoke to a group of us 
about the territories that are part of our discussion today. 
Senator McCain said, ``Putin wants Ukraine, Georgia, and 
Moldova within the Kremlin's sphere of interest. He believes 
that keeping the conflicts in the disputed territories alive 
will help him achieve that goal--a goal we cannot allow him to 
achieve.''
    Thank you, Mr. Chairman. I would be happy to take any 
questions that you might have.
    [The prepared statement of Mr. Nix follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Keating. I thank the witnesses. I will now recognize 
myself for 5 minutes. Just quickly if someone has a thought on 
this, Ms. Vartanyan mentioned this briefly with the Russian 
people, it is always important to distinguish the Russian 
people from the policies of Putin himself when that is 
possible.
    Could any of you really get a sense of the Russian people's 
view of this? Or is the propaganda that is there so widespread 
that they really do not have a view of this? Anyone? Mr. Nix.
    Mr. Nix. As you know, Chairman Keating, we have a fairly 
robust program in Russia. We cannot really talk about it. As 
you know, IRI has been designated by the Ministry of Justice, 
the Russian Federation, as an undesirable organization. As 
such, any communication with us, any work with us, can be 
criminally prosecuted.
    All I can say is that in our interaction with the 
opposition leaders in Russia, we hear stories of tremendous 
economic collapse, economic problems, disaffection with the 
leadership.
    You saw the results of the local elections last fall in 
both Moscow and St. Petersburg where the ruling party of 
President Putin did not allow its candidates to run under their 
own party banner. That tells you something about the slipping 
support that the regime enjoys right now.
    Again, that is anecdotal, but that is what we are hearing 
from the opposition.
    Mr. Keating. Yes. Thank you.
    Mr. Ostrovsky, in your background, you were mentioning in 
effect the orchestrated manner, how their information is being 
manipulated. Mr. Nix mentioned about the information barrier 
that is there. What can we do tactically? Are we doing enough 
in the U.S.? Can we do more in terms of exposing this and 
countering these kind of activities?
    Mr. Ostrovsky. I do not know if I can, as a journalist, 
really give recommendations to the U.S. Government of how they 
should deal with disinformation and propaganda coming out of 
Russia and the former Soviet space. But I think there needs to 
be a wider recognition of its effect, and the fact that it 
persists to this day, and that it is a serious problem.
    But we also need to talk about its limitations. You know, 
to talk about the question that you asked earlier, I think 
attitudes really have shifted. And I have seen interviews with 
Russian sociologists that say that a lot of Russians feel 
buyer's remorse over the annexation of Crimea and the effect on 
Mr. Putin's popularity ratings, which were bumped up a good 
year or two, those effects have now washed away and he is 
seeing some of the lowest approval ratings that he has seen in 
his entire 2-decade-long career as president.
    So while there is a lot of disinformation floating around, 
I think its purpose in a lot of cases when it targets us is to 
confuse the situation rather than push any kind of ideology by 
sending our various confusing, often contradictory narratives. 
And in Russia itself, you know, the agenda is usually to 
improve the Kremlin's and Mr. Putin's own ratings.
    Mr. Keating. Yes.
    Ms. Vartanyan.
    Ms. Vartanyan. Well, I will respond to your initial 
question about Russian people and their attitude. So I think 
Georgia provides quite a good example in that because more than 
10 years have passed since the war, and during these years I 
have seen such a great evolution in the way people think and 
what even my friends in Russia say about what happened in 
Georgia.
    And it started with blaming Georgia for what happened in 
South Ossetia, and now actually I see more of my friends coming 
and visiting me in Georgia. And I think one of the reasons for 
that is actually the policy that the Georgian government has 
kept. Georgia invited Russians to come, and even now during 
some of the seasons you can see more Russians actually walking 
along the central streets and speaking freely Russian than, 
let's say, 10 years ago.
    And I think which kind of approach and which kind of 
engagement with the people, it helps to really change the 
moods. And because of that, actually, in my testimony I have 
been calling on more engagement with those who live in Abkhazia 
and South Ossetia, because more can be done through more 
contacts and through more engagement, so that they can see an 
alternative.
    Mr. Keating. Okay. Ambassador Baer.
    Mr. Baer. Yes. Let me just add one thing to your first 
question, which is I agree that these things have a shelf life 
and they tend to go rotten like fruits in terms of the Russian 
people's general attitude toward them.
    But the other thing that I recall is that, you know, I used 
to joust every week with the Russian ambassador about Ukraine, 
and I never saw him get so angry or red-faced as when I talked 
about the Russian soldiers who were dying in Eastern Ukraine 
and that the Russian government would not admit that they were 
Russian soldiers and that these military men--mostly men--were 
going home in secret and their families were not being allowed 
to mourn them and their military deaths.
    And that used to drive the Russian ambassador crazy, and I 
think part of what we should be doing more is reminding people 
within Russia about the costs that these conflicts have not 
just for the people in Georgia, Moldova, and Ukraine, but also 
the costs that they bear for Russians, because they do keep 
Russia as a pariah in the international community and because 
they have imposed direct costs on Russians.
    Mr. Keating. Interesting. I now yield to ranking member, 
Mr. Kinzinger.
    Mr. Kinzinger. Thank you, Mr. Chairman.
    Again, to all of you, thank you for your testimony. Mr. 
Baer or Ambassador Baer, to add to what you said, you know, it 
is an honor to serve your country, even if it is a country we 
disagree with, and to deny those Russian soldiers the honor of 
serving their country, even if you very much disagree. If I was 
asked to not admit I was an American in my service to my 
country, I would be pretty ticked off, quite honestly.
    You also mentioned, talking about Russian disinformation, 
you know, I have a Russian-created story about me out there. If 
you did not know, I created ISIS with John McCain actually, and 
there are people on the internet that believe that, and it is a 
real problem. You know, the reality is there is always going to 
be people that want to accept a conclusion that comports to 
their world view. The Russians exploit that, and I think it is 
wrong for any administration ever, under any party, to deny the 
seriousness of that undermining any kind of democracy.
    This is part of the Russian shadow war--the shadow war of 
misinformation, the shadow war of little green men, because 
they can say they are not there, is below the threshold kind of 
actions, whether it is cyber, whether it is space, whether it 
is putting people in there under a mercenary--the Wagner Group 
that supposedly Iraq did independently, but are not.
    It is important to know hundreds of members of the Wagner 
Group were killed by U.S. military a few years ago, and Russia 
was very quiet after that. Russia, as I said in my opening 
statement, they go up to a brick wall, and when they hit a 
brick wall they back up. Putin is a smart man. He knows this. 
But he also knows he can push as far as he possibly can.
    And you look at the situation and the conflict recently 
with Turkey and how quickly, of course, Russia backed down. The 
point is, Russia is a paper tiger. They are a power in the 
region. They are somebody that has to be dealt with, but they 
exist--and I think it was actually John McCain, my good friend, 
that said they are basically a gas station, and so you go after 
their energy. Energy is low. That is hurting Russia. They are 
going to get desperate. But that is how you do these battles, 
and you are very clear about what their actions are, so they 
are very weak.
    I have got to also mention real quickly, in Georgia, the 
violations on the line that are happening are significant, 
including Russian police or local police in the occupied areas 
that basically are allowed and given automatic weapons when the 
agreement says that you can, as a police officer, only have a 
sidearm; the moving of the border.
    They understand that the Russian--a Georgian response is 
exactly what Russia is trying to provoke, and so it puts 
Georgia in a tough position of, how do we defend our territory 
but also not provoke a larger Russian response? And that is 
where American involvement and visits--I have been twice to 
that part of the area and seen the border. It sends a message 
to Russia and the people behind the line that the U.S. is 
paying attention, that they are not forgotten, and that there 
will be consequences to a broader conflict.
    Let me ask first off, Mr. Baer and Mr. Nix, when we talk 
about NATO, Ukraine and Georgia and NATO, there has been some 
resistance all over in the United States, but generally I think 
the American people are very much in support of this, but there 
is resistance in Europe.
    When you have troops in Georgia, Russian troops in Georgia, 
and they say that is the reason we cannot bring them to NATO, 
all that does is send Russia a lesson that all you have to do 
is put a few troops in a country and they will never join NATO. 
Can you briefly talk about that? And then you, Mr. Nix.
    Mr. Baer. Sure. I mean, I think, Mr. Kinzinger, you quite 
aptly put the problem in front of us, which is that when we 
allow Russia to deny these countries the opportunity to make 
their own decisions about their security arrangements simply by 
occupying part of these countries, we create an incentive for 
Russia to do that elsewhere where it wants to.
    And, obviously, we have--our policy has been since 2008 
that NATO is open to membership to Ukraine and Georgia, and 
that we envision that eventuality. I think, you know, because 
the conflicts remain unresolved, that is a stumbling block as 
we talk with Europeans and other NATO allies.
    I think one other point to make--that they are making is to 
remind everybody that our assistance to Georgia, in particular 
in this case, is not a one-way street. Georgians have sent over 
10,000 soldiers over a decade to serve with ISAF in 
Afghanistan. And so Georgia and Ukraine--and we have done joint 
trainings with the Ukrainians as well--we do have a security 
relationship with them, and it is potentially even more two-way 
street over the long run.
    Mr. Kinzinger. That is right. We need Georgia--if you look 
at their location in the region, it is either stuff goes 
through Russia or Iran or Georgia. Georgia, pound for pound, 
has actually provided more force to Afghanistan than any 
country except the United States.
    Mr. Nix.
    Mr. Nix. That is a salient point, that Russian presence has 
been the biggest barrier to NATO membership for Georgia. Again, 
the numbers are overwhelming in support. This is what the 
Georgian people want. You have correctly pointed out that our 
European friends are more reluctant.
    There are a couple of ideas percolating, one of which I 
know you are very aware of, and that is to perhaps exempt the 
occupied territories from the provisions of Article 5. That has 
been discussed. We have tested it in polling data. There is 
public support for that, but it is still very tricky in 
domestic politics in Georgia.
    That could be seen in some circles as being some sort of 
concession, and so I do not think you will see that come up 
prior to the Georgian parliamentary elections in October. But 
in the long term, I think it does have some appeal and it is 
worth further discussion with our European allies.
    Mr. Kinzinger. Thank you. Time flies when you are asking 
questions, but not when you are watching other people ask 
questions. Thank you all.
    I yield back.
    Mr. Keating. Vice Chair Spanberger.
    Ms. Spanberger. Thank you, Mr. Chairman.
    Thank you to our witnesses here today. I appreciate your 
participation in this hearing and the thoughts that you have 
provided. Ambassador Baer, you spoke about your--I do not 
remember, did you call it jousting with the Russians during 
your time at the OSCE. And I was wondering if you could perhaps 
just expand on that a bit more, and could you expand on--I 
would love your perspective on how Russia does use its role at 
the OSCE and other international organizations to disrupt peace 
and reconciliation in Georgia, Moldova, and Ukraine.
    And from your perception, what can the United States do to 
account for the strategy that we see them employing, so that we 
can better enable international institutions to support peace 
efforts? And the question is directed to Ambassador Baer, but I 
welcome anyone else who wants to add something as well.
    Mr. Baer. So I think that is a really interesting question 
that merits a long discussion, which, you know, I mean, the 
Russians are actually incredibly talented multilateralists. 
They participate in the United Nations, OSCE, other 
multilateral fora, and they often have the most skilled 
lawyers. They have people who have institutional knowledge and 
remember and can quote, you know, when you say, ``I think we 
should do X,'' they say, ``Oh, but in 1993, you proposed 
this,'' and blah blah blah.
    And so, you know, I think they are serious about their 
engagement in these fora. What they are not serious about is 
building a system of law and principles and institutions that 
can undergird a peaceful international politics. They use these 
fora as ways to advance their own national interest and only 
their own national interest as--and I should say, as President 
Putin defines it, which is really, I mean, President Putin's 
personal interest. It is only a slight exaggeration to say that 
Russia has no foreign policy as such. It only has domestic 
policy that manifests itself in their international political 
engagements.
    And so I think what is important for us to recognize is 
that they are often trying to trap us into withdrawing from 
international fora. They are trying to be just difficult enough 
to get us to pull the plug.
    And one of the things that we should be wary of--and that 
does not mean we should not hold them accountable, but we 
should be wary of taking the bait and discarding things that 
are useful to us and that are consistent with our general 
principled approach to building out an international system 
that is girded in institutions and universal principles, so 
that we can over the long run bring others like Ukraine, 
Georgia, and Moldova, knit them more firmly into the 
international community, and hold Russia accountable.
    Ms. Spanberger. Would anyone else want to comment on that? 
Perfect.
    Well, so then, if I can go back to the OSCE just a bit 
more, and the work of the OSCE's Conflict Prevention Center, as 
well as OSCE's special monitoring mission in Ukraine. I would 
love for you to elaborate a bit on that work, and if you have 
any specific recommendations that you would make that the 
United States, from a policy standpoint, could be doing to best 
support these initiatives. I would love to hear your thoughts 
on that.
    Mr. Baer. So the CPC at the OSCE works across the OSCE 
area, and they play an important function, particularly in 
supporting the missions that are deployed and early on in 
crises, in facilitating diplomacy, et cetera.
    As for the SMM, you know, it is pretty remarkable to me 
that it has been 6 years since we negotiated the agreement for 
the SMM. And I have got to tell you, it was thanks to Victoria 
Nuland, I was--my team and I were negotiating over the course 
of several days. The OSCE, as you probably know, decides 
everything based on consensus, which means that you have to get 
the Russians on board.
    And, you know, indeed the Russians were, at that time, 
claiming that there were these gross violations of the human 
rights of Russian speakers in Eastern Ukraine, and so part of 
the argument for deploying the SMM was to be an observer 
mission, to document those things as well as any other issues 
of concern related to OSCE principles.
    And we were unsuccessful in getting them to allow an OSCE 
office in Crimea. That was--an SMM office in Crimea, and that 
was part of the last piece of negotiating. And I wanted to hold 
out for that, and Ambassador Nuland told me, ``Baer, make the 
deal.'' And I did, and I am, you know, pretty astonished at how 
successful the OSCE has been over 6 years. And I know there are 
always complaints with the mission of over 1,000 people that 
are spread out across some difficult territory.
    But I think they have done remarkable work in documenting 
on a daily basis what is happening on the ground. And for 
policymakers that has been incredibly important, and for the 
Ukrainian government that has to make a case not only to its 
own people but also to the world about what continues to happen 
at the line of contact, what are overwhelmingly and have been 
for years, overwhelmingly Russian and Russia-based separatist 
violations of agreements that have been made.
    You know, if there were not an objective body to document 
those things, the political situation would be worse, and the 
situation on the ground I think would be more violent than it 
is today. And so I think the United States should continue to 
support the extension of the SMM, and we should continue to try 
to seek to support wherever we can their technical capacities 
and make sure that we are paying our share of the budget.
    Ms. Spanberger. Thank you very much.
    I yield back.
    Mr. Keating. Representative Wagner.
    Mrs. Wagner. Thank you, Mr. Chairman.
    Russian-backed protracted conflicts in countries like 
Ukraine, Moldova, and Georgia are incompatible with our 
strategic interest in a prosperous and peaceful Europe. The 
United States has punished Russian aggression against these 
sovereign countries by imposing robust sanctions, as Mr. Nix 
pointed out, on Russia, publicly condemning Russia's malign 
actions and stiffening Ukrainian and Georgian defense efforts 
through arms sales.
    We must continue to defend Europe against Russia's attempts 
to undermine rule of law, democracy, and sovereignty.
    Russia's behavior has been increasingly aggressive in the 
Sea of Azov and in the Kerch Strait, where it has bolstered its 
naval presence and begun kind of interfering with Ukrainian 
shipping and naval transit.
    Ambassador Baer, how should the United States support 
Ukraine against Russian efforts to diminish freedom of 
navigation?
    Mr. Baer. Thank you, Representative Wagner. I think, you 
know, I only had a moment to highlight it in my opening 
comments, but I think one of the things that this--that we 
should not lose track of in this hearing is the importance of 
the Black Sea region strategically.
    And you mentioned the recent Russian efforts to limit 
navigation in the Kerch Strait. There was an unprovoked attack 
on Ukrainian naval vessels in December of--14 months ago. That 
was one of the instances--by the way, I mentioned the Open 
Skies Treaty in my opening testimony. That was one of the 
instances in which we used an extraordinary Open Skies flight 
in order to bring Ukrainians, as well as other partners and 
allies, on board to overfly and to see what was going on on the 
Earth below, land and sea.
    And so I think one of the things that is really important 
is for us to make sure that we are including Georgia and 
Ukraine and, you know, Moldova does not have Black Sea 
frontage, but Romania is a partner in the Black Sea, as well as 
Turkey, in developing a concerted strategy to have security in 
the Black Sea region.
    As I said, Putin uses that not only as a way of menacing 
the Ukrainian navy or that--or the Georgians, but he uses it as 
a launching pad in order to wreak havoc in the middle East, and 
I think we should be concerned about it for that reason as 
well.
    And going back to Mr. Kinzinger's point, you know, this is 
one of the reasons why we have a strategic interest in having a 
long-term partnership with these countries, not just protecting 
them from conflicts but also partnering.
    Mrs. Wagner. In the interest of time, I appreciate that. 
Russia aggressively uses its energy dominance as a coercive 
foreign policy tool. However, I understand that some hope the 
Southern Gas Corridor, which will connect Caspian Sea natural 
gas reserves with European markets, will diminish Russia's 
leverage in Europe.
    One of the Southern Gas Corridor's three new pipelines is 
set to run through Georgia, where Russia has fomented 
protracted conflicts in key regions.
    Ms.--I did not get your proper--Vartanyan; am I close? Are 
you concerned that Russia will seek to destabilize the 
situation in Georgia to undermine the Southern Gas Corridor 
project?
    Ms. Vartanyan. Russia is already very well present in 
Georgia. Russia bears responsibility for the regions of the 
conflict of Abkhazia and South Ossetia. I mean, the Russian 
fleet--Russia invaded Georgia in 2008, and Russian military 
bases are located in Abkhazia and South Ossetia, which are the 
territories that they are very close--they are very central, 
especially South Ossetia, inside Georgia.
    So because of that, it is so important, actually, to pay 
attention to the developments on the ground. And United States 
plays a very important role. On the one hand, it supports 
Georgia's policy on no recognition. But on the other, United 
States is also part of the negotiations before that have been 
taking place so far.
    And I think that the United States can continue and 
reinforce its participation in that, and that can potentially--
hopefully, that can help to sustain stability on the ground and 
also prevent new incidents and violence.
    Mrs. Wagner. Thank you. During the cold war, the United 
States used Radio Free Europe, Radio Liberty, and Voice of 
America to spread the truth of freedom and democracy to the 
world behind the Iron Curtain.
    Mr. Nix, what role does Russian propaganda and 
disinformation play in maintaining frozen conflicts in post-
Soviet countries? And how should the United States use 
organizations like Voice of America and Radio Free Europe to 
respond? In 1 second.
    Mr. Nix. Thank you for that, Mrs. Wagner. Well, certainly, 
Russian information plays a huger role in Ukraine and also in 
Georgia. In the Ukraine case, I would say this. It is 
definitely affecting public opinion in the occupied 
territories. People there watch nothing but Russian television.
    The Zelensky government, as I said in my opening statement, 
has made a concerted policy change in how to deal with Donbass 
and Crimea, and that is to engage with the people who live 
there. They want to create connections and relationships. They 
want to make it easier for people to cross the border.
    The information space is very important. The Zelensky 
government has launched a Russian language television broadcast 
into Donbass in a way to educate people on the reforms that he 
is undertaking under his presidency and to connect up with the 
citizens. They need help. They need assistance from us. So, in 
addition to the American-based VOA broadcast, which should be 
enhanced, we should be supporting the Zelensky government in 
all of these efforts to----
    Mrs. Wagner. That is a very good recommendation. I thank 
you for that.
    I am out of time. I appreciate the indulgence of the chair, 
and I yield back.
    Mr. Keating. Representative Fitzpatrick.
    Mr. Fitzpatrick. Thank you, Mr. Chairman.
    Thank you all for being here. Mr. Nix, my question for you 
regarding Ukraine has to do with the perception--your 
perception of the current attitudes of the Ukrainian people 
with respect to the United States, with respect to NATO, with 
respect to the EU.
    I served as an FBI agent in Ukraine post-Crimea, pre-
Donbass, and I always took note of this in my travels 
throughout the country. Where do you see their attitudes right 
now toward the United States, toward NATO, and toward the EU?
    Mr. Nix. Thank you for being here, Mr. Fitzpatrick. We 
appreciate the role that you have played in Ukraine and your 
strong advocacy of Ukraine's sovereignty.
    With regard to public opinion, it is very, very clear. 
Every poll that IRI conducts in Ukraine, the numbers in support 
of EU membership and NATO membership trend upward. The vast 
majority of Ukrainians want to see their country in the 
European Union, and a majority want to see their county in 
NATO.
    Now, obviously, those numbers differ when you do the 
breakdowns between Western Ukraine and Eastern Ukraine. But 
still, even in Eastern Ukraine, a majority of citizens want to 
see their county in Western institutions. And, in fact, the way 
the question is asked, should Ukraine be part of the EU or 
Putin's Customs Union?
    And the results are very clear. Ukrainians want their 
country as part of the West.
    Mr. Fitzpatrick. And in that data, is there a disparity 
between the age groups?
    Mr. Nix. Well, obviously, young people are more predicated 
toward the West. Pensioners are more inclined, to the degree 
that people do support the Customs Union, that is relegated to 
older people.
    Mr. Fitzpatrick. And with regard to the policy change you 
referenced regarding President Zelensky doing more outreach to 
both Crimea and Eastern Ukraine, do you believe that that 
change is in an attempt to reunify the country, or something 
else?
    Mr. Nix. No. I think it is a clear attempt to reunify the 
country. And, again, it is a stark departure, with all due 
respect, from the previous Presidential administration. But his 
goal is to reach out and connect up with these people. That is 
why I said in my opening statement a million people cross the 
checkpoints, and there are very few checkpoints.
    In fact, in Luhansk, many people prefer to cross between 
the border between Russia and Ukraine proper, not the point of 
contact because it is easier. So a lot can be done by the 
United States to assist the government--more border crossing, 
ease of travel. And I can tell you, I have been to the border 
crossing at Kalynchak and Kherson Oblast right across from 
Crimea. If you look across 200 yards to the Russian side, there 
is a gleaming bus terminal, there is a taxi place, there is 
restaurants, there is cafes. Standing on the Ukrainian side, 
there is the border guards, us, a small kiosk to pass out some 
information, and a beer tent with a dirt floor and some 
sleeping dogs.
    That is the difference between what people see when they 
leave Crimea and when they enter Ukraine proper. And it was a 
calculated decision by the Poroshenko administration--and I 
understand it--they did not want to accept the status quo. So 
they did not want to invest in a structure on the Ukrainian 
side, but this is a long-term engagement. Peace will take some 
time. The government very badly wants to make it easier for 
people to cross from the occupied territories, both in Donbass 
and Crimea, and that is an important initiative that the U.S. 
can engage in.
    Mr. Fitzpatrick. So what is the current status of border 
crossing right now? Because I have never been to Crimea. I hear 
it was always considered a huge vacation destination--beautiful 
area for the Ukrainians to go to. Do you see that increasing?
    And, second, and I will just finish with this last 
question, do you see any realistic prospect of reunifying 
Ukraine?
    Mr. Nix. Well, as to Crimea, yes, it was a popular place. I 
used to vacation in Crimea when I lived in Ukraine, and it was 
very, very popular. The numbers are down. The economy in Crimea 
is suffering. There is a lack of tourism, but there is another 
big issue, and this goes to connecting up with the Ukrainian 
people.
    The Zelensky government is trying to figure out now what to 
do about water. There are huge water shortages in Crimea. 
People do not have sufficient drinking water. What does the 
government do? As you know better than anybody, Mr. 
Fitzpatrick, 4 years ago Ukraine shut off all the water supply. 
There is a vast series of canals that have been built 
connecting the Dnipro River and fed into Crimea and supported--
basically supplied 90 percent of Crimea's water supply.
    The Ukrainian government has to decide whether or not to 
turn the tap back on to alleviate the suffering of the people, 
Ukrainians still living in Crimea. But the question is: does 
that contribute to military and industrial enterprises that are 
propped up by Russia? Those are the types of tough decisions 
that Zelensky has to make, but my understanding, he is leaning 
toward turning on the water again because he wants to help 
improve the lives of daily Ukrainians.
    As far as your final question, is reunification possible, 
yes, I believe it is. Again, the majority, the vast majority of 
Ukrainians want to see their country united again. I think 
President Zelensky is determined to do that, but it will be 
small steps like the prisoner exchanges and other exchanges.
    It is a very long-term prospect, and I truly believe, as I 
said in my opening statement, that sanctions will be the only 
thing that will ultimately bring Vladimir Putin to the 
negotiating table on Dongass and Crimea both.
    Mr. Fitzpatrick. Thank you, sir.
    I yield back, Mr. Chair.
    Mr. Keating. Thank you.
    I appreciate, Ambassador Baer, your comments on Open Skies, 
on the Open Skies Treaty. I share the importance of continuing 
that. I was with General Walters just a few weeks ago. He 
echoed the same sentiment, so I hope that treaty that is on 
pause, you know, can continue because there are advantages. And 
you just brought forth a very important one in the Black Sea 
area and that enable incursion.
    You know, one of Putin's greatest goals must be--in the 
area we are talking about is to seek division between the U.S. 
and our allies, our European allies. And I would just like your 
opinions, how seamless is our approach right now? What are some 
concerns you might have in that regard? What can we do to make 
sure that the division does not extend to something that will 
hurt our ability in the area that we are discussing today?
    Ambassador Baer, do you----
    Mr. Baer. Let me be quick at the outset and just say I 
think you are quite right that it is an objective to divide the 
U.S. and Europe, and obviously to divide European countries 
within each other and against each other. That is an objective 
of Putin's government.
    And one other thing that I think is really important to 
highlight, especially in this context, is the importance of you 
all, because I think one of the challenges we have today--and I 
was in Munich a few weeks ago for the security conference--is 
that the Europeans are not exactly sure where the United States 
stands. And so even those who willing to still be good partners 
with us do not actually know exactly what we stand for right 
now.
    And we can go into the reasons for that, but I think one of 
the--whatever one diagnoses the reasons being, one of the 
affirmative things that can happen is for members of the House 
and Senate to carry the flag and to drive home the importance 
of the Transatlantic relationship, our commitment to it over 
the long term, and our commitment to the same principled kind 
of foreign policy that has been a hallmark of Republican and 
Democratic administrations since the end of World War II.
    Mr. Keating. That brought me to another point that I think 
is important, too. What is the importance and why is it--other 
than deflecting the blame away from himself, why is Putin 
targeting, in your opinion, Ukraine for the fiction that they 
were involved in interference in the U.S. elections in 2016? 
Ambassador?
    Mr. Baer. Because when somebody will buy a story, you sell 
it.
    Mr. Keating. Yes. Any other comments on that at all? Mr. 
Nix mentioned sanctions. What would you recommend for the type 
of sanctions? Is it against the oligarchs? Is it against--what 
is your--when you say ``sanctions,'' further sanctions, what 
did you have in mind?
    Mr. Nix. I would advocate for a combination of both 
sectoral sanctions and individual sanctions. Again, we believe 
that they are having the desired effect. And to go back to your 
point, Mr. Chairman, about Russia dividing the allies, I think 
the sanctions issue is one where they have had success.
    We need to convince our European allies that they should 
not just merely extend European sanctions on the Russian 
Federation; they need to expand them as we have.
    Mr. Keating. Any other comments on those points? Any other 
members seek to be recognized? Representative Wagner.
    Mrs. Wagner. If you do not mind, Mr. Chairman.
    Mr. Nix, I understand that Georgia is interested in 
negotiating a free trade agreement with the United States. How 
would a U.S.-Georgian trade agreement impact the economic 
situation of average Georgians and internally displaced persons 
and those living in the occupied territories?
    Mr. Nix. That is a trade agreement that the Georgian 
government would actively seek, it covets, because it would 
drastically improve the economy. If you look at the polling 
data, the economy is the biggest issue among Georgian voters. I 
mean, we cite to the NATO and EU numbers, but when you ask, 
what is the most important problem facing Georgian citizens, it 
is the economy and jobs. And certainly a trade agreement would 
help jumpstart the Georgian economy, which has been in free 
fall primarily because of Russian boycotts on Georgian goods.
    Mrs. Wagner. I have one more question. Do you mind? In 
2018, Georgia launched a peace initiative to improve the 
quality of life in the disputed regions. Ms. Vartanyan, how has 
the peace initiative furthered prospects for peace in Georgia? 
And how can the U.S. support these efforts?
    Ms. Vartanyan. Well, it is a great topic for me to discuss.
    Mrs. Wagner. Yes.
    Ms. Vartanyan. Also, we at Crisis Group wrote a very 
comprehensive report on the situation with the development of 
trade prospects with the breakaway regions of Abkhazia and 
South Ossetia. And during my travels to Abkhazia, for instance, 
I could see that actually many more people want to do trade. 
And this is mainly because of problems with the economy in 
Russia, and also the fact that they started receiving less 
funds after Crimea annexation and also with problems with the 
economy and sanctions related to issues.
    And this is the very moment actually to act, and that was 
very positive step from the Georgian side, that they started 
developing the plan. And I understand that we are still 
making--some certain initial steps have been made.
    And if you allow me--you mentioned some free trade 
agreement, and I understand this is something that is still in 
discussion. But the EU has already signed free trade agreement 
with Georgia, and has already contributed heavily to the 
Georgian economy.
    And not only--initiatives like these, they provide space, 
and they give more ideas, you know, to those who work on the 
conflicts, because, for example, with EU trade agreement, it 
potentially can expand to the areas that are not under direct 
control of the Georgian government. And I understand that there 
are some European diplomats that are doing thinking on that.
    We wrote about this in the report. I will be happy to share 
more ideas. But I see that you have 2 more minutes, and would 
you allow me to jump on another question that you mentioned--
Radio Free Europe, Radio Liberty?
    Mrs. Wagner. Yes.
    Ms. Vartanyan. You know, in my past life, I used to be a 
journalist, and I spent 4 years working for the Radio Liberty. 
Georgia is a great country in terms of providing good lessons 
included for Ukraine. In 2009, Radio Liberty, they opened a new 
program, a Russian language one, which is part of the Georgian 
service. It is called Ekho Kavkaza, and I had an honor to work 
for it.
    This is a program that brings together journalists from the 
breakaway regions and from the rest of Georgia. It is 1-hour 
show, you know, with news and stories from all these places. 
And I should say that in the beginning when we were starting, 
it was extremely controversial thing because not everyone wants 
to hear the story from the other side.
    Ten years have passed. They actually celebrated an 
anniversary some weeks ago, and I can tell you that now with 
Ekho Kavkaza it is the only one that in many cases provides the 
alternative to anything that is developing on the ground. And 
people turn to it, even local ones, when they want to hear an 
alternative about the developments on the ground, because this 
is the only source of information made by the local journalists 
alternative to the Russian propaganda.
    So I would say that for me personally it is a very good 
example how you start despite difficulties and problems, and 
you still reach out to the other side. You engage with them, 
and you actually by--by giving them a chance to work with you, 
you are not fighting propaganda with propaganda. But you are 
working with them and you give them a chance to get good source 
information.
    Mrs. Wagner. Thank you very much. I appreciate the 
indulgence of the chair.
    Mr. Keating. Well, thank you.
    Mrs. Wagner. And this peace agreement--or, pardon me, the 
free trade agreement, Mr. Chairman, is something that we should 
probably talk about pursuing.
    Mr. Keating. Great. Well, thank you. Thanks, 
Representative.
    As a final invitation for comment, you know, when we 
organized this hearing, we did not organize a hearing on 
Ukraine, individually on Moldova, individually on Georgia, 
individually--we put the three countries together for a reason.
    And I think if you wanted to have any final comments, if 
you could, just tell us in your view what is the importance of, 
for instance, what happens in Ukraine to Georgia, the 
importance of what happens in Ukraine to Moldova, the 
importance to the U.S. and the importance to our European 
allies.
    Mr. Nix.
    Mr. Nix. Mr. Chairman, I think the common link, you 
mentioned the situation in the Black Sea. That is a common link 
between the three countries, and so you have the weaponization 
of the Crimean Peninsula by the Russian Federation. It is now 
bristling with airfields and surface-to-air missiles. It is 
used as a staging point to maneuver against both Ukraine and 
Georgia on the Black Sea.
    And then, finally, the link to Moldova is, that is exactly 
how the Russian 14th Army in Transnistria is supplied--through 
air transport from Russian bases in Crimea. So that is one of 
the common links that we face in these three conflict areas.
    Mr. Keating. Great. Anyone else before we close? Ambassador 
Baer.
    Mr. Baer. Yes. I think, you know, there are two recent 
events that connect to what we are talking about today in the 
last few weeks--the terrible humanitarian disaster in Idlib and 
the possibility of--well, the reality that close to a million 
people have been displaced and add to the humanitarian toll 
already of what has been an incredibly violent and devastating 
war in Syria, and the announcement I think this morning or last 
night that Putin has now successfully gotten the Duma to extend 
his potential rule until 2036.
    You know, the first connects to why, you know, Crimea 
matters to the broader picture, not only to us but to our 
European allies, because the security of the Middle East is a 
crucial issue for them and one that their domestic publics are 
seized with.
    And the second I think connects to what we are talking 
about here today, because as much as we talk about Putin's 
desire to control Ukraine, Moldova, and Georgia through these 
conflicts, and to use them as tails that wag the dog, in my 
time in government, I came to believe that actually his bigger 
interest was not necessarily controlling them per se, but 
actually preventing their positive examples.
    The power of a democratic, prosperous Ukraine that has rule 
of law and that treats its citizens fairly, no matter their 
background, is one that would provide a powerful counter-
example to the Putin who wants to rule until 2036 and who robs 
from his own citizens and does not run a system that actually 
delivers for them a promising future.
    And the same is true, obviously, of Georgia and Moldova. 
And so to me it is even worse than it looks, because it is 
actually spite that causes him to try to tear these countries 
apart and prevent their progress, because he does not want to 
have to deal with the powerful example that they might set and 
show the Russian people what is possible in their country as 
well.
    Mr. Keating. I could not agree more. I think that there is 
no coincidence that the act of war started when they were 
unable to control the political side of things as Ukraine was 
moving toward EU membership. That is unquestionable, and that 
is what I think precipitated this as well. It is, once more, a 
reminder that in all of these three countries we began with a 
film of a hot war that is going on right now in Ukraine, 
something for us to always keep in mind, that all of these 
countries are on the front line. They are on front line in 
terms of the hybrid warfare that is occurring from Russia, and 
they are in the front line with an active military and hostile 
war that is occurring in Ukraine.
    Once again, we are honored to have veterans here this 
afternoon from Ukraine. Your presence is greatly appreciated 
here to remind us that you are indeed on the front line.
    With that, I will adjourn and thank our witnesses for a 
very, I think, enlightening hearing. Thank you.
    [Whereupon, at 3:37 p.m., the subcommittee was adjourned.]

                                APPENDIX
                                
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
